<html>
<title> - CELL PHONES ON AIRCRAFT: NUISANCE OR NECESSITY?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





             CELL PHONES ON AIRCRAFT: NUISANCE OR NECESSITY?

=======================================================================

                                (109-28)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2005

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                                 _____

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
25-908 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



                        SUBCOMMITTEE ON AVIATION

                    JOHN L. MICA, Florida, Chairman

THOMAS E. PETRI, Wisconsin           JERRY F. COSTELLO, Illinois
HOWARD COBLE, North Carolina         LEONARD L. BOSWELL, Iowa
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
VERNON J. EHLERS, Michigan           ELEANOR HOLMES NORTON, District of 
SPENCER BACHUS, Alabama              Columbia
SUE W. KELLY, New York               CORRINE BROWN, Florida
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
FRANK A. LoBIONDO, New Jersey        California
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, JR., New Jersey
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
JOHN BOOZMAN, Arkansas               RICK LARSEN, Washington
JIM GERLACH, Pennsylvania            MICHAEL E. CAPUANO, Massachusetts
MARIO DIAZ-BALART, Florida           ANTHONY D. WEINER, New York
JON C. PORTER, Nevada                BEN CHANDLER, Kentucky
KENNY MARCHANT, Texas                RUSS CARNAHAN, Missouri
CHARLES W. DENT, Pennsylvania        JOHN T. SALAZAR, Colorado
TED POE, Texas                       NICK J. RAHALL II, West Virginia
JOHN R. `RANDY' KUHL, Jr., New       BOB FILNER, California
York, Vice-Chair                     JAMES L. OBERSTAR, Minnesota
LYNN A. WESTMORELAND, Georgia          (Ex Officio)
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Friend, Patricia A., International President, Association of 
  Flight Attendants-CWA, AFL-CIO.................................    26
 Guckian, Paul, Senior Director, Technology, QUALCOMM, Inc.......    26
 Knapp, Julius, Deputy Chief, Office of Engineering and 
  Technology, Federal Communications Commission..................     8
 Koch, Greeley, President, Association of Corporate Travel 
  Executives.....................................................    26
 Parsky, Laura, Deputy Assistant Attorney General, Criminal 
  Division, U.S. Department of Justice, accompanied by Patrick 
  Kearney, Senior Policy Advisor, U.S. Department of Homeland 
  Security.......................................................     8
 Sabatini, Nicholas A., Associate Administrator for Aviation 
  Saety, Federal Aviation Administration.........................     8
 Watrous, David, President, RTCA, Inc............................     8

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    36
Costello, Hon. Jerry F., of Illinois.............................    37
Oberstar, Hon. James L., of Minnesota............................   104
Porter, Hon. Jon, of Nevada......................................   107

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Friend, Patricia A..............................................    39
 Guckian, Paul...................................................    82
 Knapp, Julius...................................................    89
 Koch, Greeley...................................................    94
 Parsky, Laura...................................................    96
 Sabatini, Nicholas A............................................   109
 Watrous, David..................................................   118

                        ADDITIONS TO THE RECORD

Association of Professional Flight Attendants, Lonny Glover, 
  National Safety Coordinator, statement.........................   122
Cingular, statement..............................................   128
International Brotherhood of Teamsters, statement................   129
Overview of Public Comments on the Airline Cell Phone Ban........   135

 
            CELL PHONES ON AIRCRAFT: NUISANCE OR NECESSITY?

                              ----------                              


                        Thursday, July 14, 2005

        House of Representatives, Subcommittee on Aviation, 
            Committee on Transportation and Infrastructure, 
            Washington, D.C.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2167, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the subcommittee] Presiding.
    Mr. Mica. Good morning. I would like to welcome you to the 
House Aviation Subcommittee hearing this morning. The topic of 
today's hearing is Cell Phones on Aircraft: Nuisance Or 
Necessity? And today's order of business in our hearing will 
be, first of all, we will have opening statements from members, 
and we have two panels of witnesses. I am also informed that I 
think we are going to have votes in about 20 minutes, so 
hopefully we can get through opening statements. We will get to 
our first panel of witnesses and move the hearing along. I have 
an opening statement I will begin with. And, again welcome, 
everyone.
    Over the past few years, unfortunately, the flying public 
has had to contend with an increasing amount of noise on 
aircraft from their seat mates who travel with an array of 
portable electronic devices--and I think we have got a bunch of 
them set to go off here. We have got my Blackberry. We have, 
this is an iPod, I guess the younger generation is familiar 
with this. And then you get to hear these on your flight, which 
is a Gameboy and then a cell phone going off all at this same 
time.
    So these are some of the noises that the average passenger 
has to contend with. So I think it is kind of fitting today 
that the Aviation Subcommittee will consider some of the many 
social air safety, national security, law enforcement, and even 
finally I guess one more noise pollution issues that have been 
raised by the Federal Communications Commission's proposed rule 
that effectively repeals its longstanding ban on the use of 
cell phones and other wireless communications devices on board 
aircraft.
    Since 1991, the FCC regulations have prohibited the use of 
certain cellular phones and wireless communication devices on 
aircraft out of concern that such devices interfere with 
ground-based cellular networks. In December, the FCC proposed a 
rule that would effectively lift its ban, and citing new 
technologies that would prevent cell phones and other wireless 
communications on board aircraft from interfering with ground-
based cellular networks, which is the FCC's primary concern.
    The Federal Aviation Administration regulations also 
prohibit the use of cellular phones and portable electronic 
devices with radio transmitters because of the possibility that 
such devices may interfere with the critical aircraft 
navigations avionics and communication equipment. Due to this 
overlapping jurisdiction, any change to the existing ban on the 
use of cell phone or other wireless communications devices on 
board aircraft would require approval of both the FAA and the 
FCC.
    While the FAA has not followed the FCC's lead in proposing 
to end its own aircraft cell ban, the FAA recently certified on 
a trial basis the use of a small aircraft mounted transmitter 
which is called a pico cell, that would allow a certain number 
of passengers to use their personal cell phones, also their 
Blackberry hand-helds and other personal digital assistance, I 
guess they are called PDAs, that again with this mechanism they 
believe it wouldn't interfere with avionics. I hope to learn 
more about this promising new technology from some of our 
witnesses today.
    In addition to the pico cell technology, the FAA recently 
certified a high-speed wireless or--well, Internet or Wi-Fi 
system which has been developed by United Airlines and Verizon. 
In addition to allowing passengers to send and receive e-mails 
and surf the Web, this technology is capable of Internet-based 
voice communications commonly known as voice over Internet 
protocol, or VOIP. That would allow passengers to make and 
receive telephone calls with very special equipment without 
again generating interference with avionics or ground-based 
cellular networks.
    Over some 7,800 interested parties, including airline 
passengers, business executives, law enforcement officials, 
cell phone providers, pilots, and flight attendants, and others 
submitted comments and reply responses to the FCC's proposed 
rule. These comments raised a number of very important law 
enforcement, national security, air safety, and some basic 
social issues that our witnesses will address this morning.
    I might say that the annoyance issue which I alluded to 
earlier is by far the most common concern raised by both the 
flying public when we consider lifting an aircraft cell phone 
ban.
    Flying has become increasingly inconvenient and stressful 
for a number of reasons, including the rising passenger loads, 
fear of terrorism, long lines, and often intrusive and 
irrational screening procedures at the Transportation Security 
Administration checkpoints, flight delays, last-minute 
cancellations, and lost baggage, and generally, unfortunately, 
sometimes increasingly poor customer service by--I will edit 
this and say--some of the airlines.
    Understandably, many passengers are protective of the 
solace they feel when they finally reached their undersized 
seats and crack open a skimpy bag of--well, I guess U.S. Airhas 
given up pretzels and some have given up peanuts. But whatever 
they get. The last thing most air passengers want is to be 
forced to listen to their neighbor chat on the cell phone about 
their ailments, their dating problems, the latest reality TV 
show, or an up-to-the-minute estimate of time of arrivals for 
the duration of the flight.
    Flight attendants also are very concerned that 
proliferation of the mundane cell phone chatter within the 
limited confines of an aircraft will inevitably lead to not 
only again passenger discomfort but possibly incidents of air 
rage, which, unfortunately, the flight attendants would be 
forced to police.
    The Department of Justice and the Department of Homeland 
Security have raised several national security and law 
enforcement concerns in their joint comments to the FCC. DOJ 
and DHS are concerned that criminals or terrorists could use 
cell phones, PDAs, other Wi-Fi connected devices to coordinate 
an attack or, unfortunately, as we have seen in some cases 
where they detonate remote controlled improvised explosive 
devices on an aircraft as they did in the Madrid rail bombing 
last year and as we learn more about again some of the 
incidents relating to the London bombings last week.
    The agencies are also seeking the ability to conduct court-
ordered electronic surveillance of suspicious passengers' voice 
and data transmission, which, in itself, also raises a number 
of concerns.
    At the same time, we have to remember that many of the 
calls from passengers of the four aircraft that were hijacked 
on September 11th were made with cell phones and provided 
invaluable information to authorities and also to loved ones. 
The cameras that are built into some of these cell phones as we 
have also seen most recently can provide key evidence for law 
enforcement investigators. In piecing together the details of 
the hijacking of the United Flight 93, the 9/11 Commission 
relied mainly on the record of FBI interviews with people who 
received cell phone calls from heroic passengers who mounted an 
assault on the terrorist hijackers and whose objective as we 
know was to crash the 757 into either the Capitol or the White 
House. It is also important to keep in mind that many of the 
passengers on the four aircraft hijacked on September 11th were 
able to say their final goodbyes to loved ones on their 
personal cell phones.
    Moreover, it is important to note that PDAs or other 
wireless communication devices would enhance the ability of our 
Federal air marshals to share intelligence on suspicious 
passengers or respond to actual terrorist attacks. Since 2002, 
Congress has appropriated millions of dollars to the Department 
of Homeland Security to research and develop air-to-ground 
communications technologies that would also allow these Federal 
air marshals to use wireless communications devices without 
causing interference with ground-based cellular networks or 
airplane avionics.
    If the FCC and the FAA were to approve the use of cell 
phones and other wireless communication devices on aircraft, 
the ultimate decision to allow such devices in flight would 
fall to the airlines, which, unfortunately, are divided on the 
issue. And regrettably today ATA, the Air Transport 
Association, has declined to participate in this hearing. To 
address the annoyance issues, some of the airlines and cell 
phone providers have also proposed a tap but not talk policy 
that would allow airline passengers to use their cell phones, 
their Blackberries, and PDAs only to send and receive e-mail 
messages and access the Internet. That is another option that 
we will probably hear about.
    So I look forward to hearing the views of our witnesses, 
hearing from the panelists, the two panels that we have 
assembled. And with that beep of one of these electronic 
devices, I will recognize Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. Mr. Chairman, I 
think I am going to have to call my office and cancel the phone 
call that I asked them to give to me. And I think Mr. DeFazio 
is probably going to have his phone ring next. So you have 
trumped us on that.
    Let me just say that I think you have accurately described 
the purpose of the hearing and some of the issues involved both 
pros and cons of lifting the ban. I would just say that I do 
have an opening statement, I will submit it for the record.
    I have very serious concerns about lifting the ban, both 
from the standpoint of safety and social consequences. I think 
that we should listen very closely to not only the FAA, but 
also the Department of Homeland Security and the Department of 
Justice. There are many issues that they have raised concerning 
the security issues that we should pay particular attention to. 
And let me just say that I look forward to hearing the 
testimony of the witnesses, and hopefully I will be going to 
the floor very shortly; hopefully I will be back at some point 
because I do have some questions.
    Mr. Mica. I thank the gentleman.
    Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman. And thank 
you for calling this hearing. I was one of the more than 7,000 
who sent a letter or comment to the Federal Communications 
Commission in very, very strong opposition to the lifting of 
this cell phone ban. And I can tell you, I come down very 
strongly on the nuisance side of this equation. I remember 
reading a couple of years ago that Amtrak tried out a cell 
phone free car on its Metroliner train from New York City, and 
so many people rushed to that car that they immediately had to 
add on another cell phone free car. Around that same time, I 
read about a restaurant in New York City that banned cell 
phones from one of its dining rooms, and the next day it had to 
double that by adding on a second dining room because so many 
people wanted to participate.
    Among the comments to the FCC, passenger Richard Olson 
wrote the Commission: A fellow passenger's signal was breaking 
up, so his remedy was to talk loudly. The flight attendant had 
to ask him to quit using the phone. On the ground, we can walk 
away from these rude, inconsiderate jerks. In there, we are 
trapped.
    The Boston Globe wrote about a conversation that Gail James 
of Shelton, Washington found on one flight. She said, quote: I 
was seated next to a very loud man who was explaining his next 
porn movie on his cell phone. Everyone on the plane was 
subjected to his explicit blabbering. Should cell use during 
flight be allowed, we had all better be prepared for a whole 
lot of air rage going on.
    A CNN/USA Today Gallup poll found that 68 percent were 
opposed to lifting this ban; only 29 percent in favor.
    Now, cell phone technology is, in many ways, a wonderful 
thing. It can be used, as we all know, to help in emergencies, 
to let someone know that they are going to be late for an 
appointment, to call for directions when you are lost. But I 
also wish that we had much more cell phone courtesy. I think 
most people do not realize that they talk much more loudly in 
general on a cell phone than they do in a private conversation. 
And almost everyone has a cell phone today. A former Knoxville 
city councilman told me at the first of this past school year 
that three young girls were in the office at Fulton High School 
in Knoxville saying they could not pay a $50 activities fee, 
but all three of the girls had cell phones on which they were 
probably paying $50 a month cell phone bills. Today, cell 
phones are heard going off, I have heard them go off at 
funerals, weddings, at movie theaters, restaurants, 
congressional hearings. One was even answered by a reporter 
asking President Bush a question, and apparently it caused 
President Bush to get very upset as it should have. Gene 
Sorenson wrote recently in the Washington Post, quote: I don't 
mean to interrupt your phone conversation, but I thought you 
should know that I can hear you. I would close the door, but I 
can't seem to find one on the sidewalk, the path at Great 
Falls, in line at Hecht's, or at table 4 by the window. It is 
not like I'm eavesdropping. As titillating as it sounds, I am 
not drawn into your conversation about yoga class, tonight's 
dinner, or Fluffy's oozing skin rash.
    Although cell phones have been around for a while, we still 
associate one with privacy. Put one to your ear, and you will 
think you are in your kitchen, office, or, what was called a 
phone booth. But take a moment to look around. You are in 
public.
    On June 21, Robert McMillan wrote in The Washington Post 
about some of the comments to the FCC, and he quoted Steven 
Brown who described the perfect trajectory of what he called 
hell: Just imagine that ring conversation being mere inches 
from your head and on both sides of you while occupying the 
middle seat for a five-hour flight from L.A. to New York. 
Hideous.
    In addition, I know there are security concerns and some 
concerns regarding possibly the effect on aircraft avionics. 
But I hope that we do not lift this ban, and I hope that it 
becomes very clear in this hearing that there is a great deal 
of opposition to this proposed change. And I thank you very 
much for calling this hearing.
    Mr. Mica. I thank the gentleman. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, this is 
not an issue of first impression for this committee. I remember 
a number of years ago we had a hearing on cell phones. We had a 
professor from Embry-Riddle who said--sorry, Mr. Chairman.
    Yeah. Yeah. No, we are in this thing. Yeah. No, it will be. 
Yeah. Yeah. Okay. Yeah. Okay. Yeah. Sorry. I'm sorry, Mr. 
Chairman. Okay. Bye, yeah. Yeah. All right. See you. Bye.
    Mr. Mica. You are just lucky you didn't do that with Mr. 
Young.
    Mr. DeFazio. I know. I would have been in deep trouble. We 
are going to put Chairman Young in charge of this issue.
    But that is the point. I mean, and he told us and at the 
time I was suspicious that we were being held captive by the 
industry to these air phones, you know, and their extortionate 
charges. But he said, convincingly, that there was a 
possibility, particularly in a fly-by-wire aircraft, small but 
possible, of a damaged cell phone or other transmitting device 
causing a problem. Now they are trying to deal with that with 
this pico technology, I guess. But I am not sure that totally 
addresses his problem. I think the committee will need to hear 
from him again and ask him whether this addresses some of these 
potential safety concerns. There are enough problems with cell 
phones and the potential with cell phones on planes. I don't 
think anybody wants to take a chance a plane might go down 
because some idiot is having a totally trivial conversation. So 
that is one point.
    I remember when smoking was allowed on planes, and the 
numbers sounded very similar to what was earlier cited here in 
the polling 68% to 29%. And yet--and in fact it was even a 
little higher against smoking, I believe. But everybody was 
subjected to the smoke. I remember when people would sit near 
the smoking section and they complained to the flight 
attendants, and the flight attendants would call the pilot, and 
finally the pilot a lot of times would just declare the plane 
was going to be nonsmoking, and everybody on the plane 
including a lot of the people in the smoking section would 
cheer. But the airlines would tell me, oh, we can't do anything 
about that. It is about competition. And, by God, you know, we 
will lose passengers if we ban smoking. So they would never go 
there.
    I worry about the same crack in the door here. One 
irresponsible airline might decide to allow a free-fire zone 
for cell phones, and then the others would say, oh, my God, it 
is a competitive thing; we might lose passengers. I would argue 
the opposite as the chairman and former chairman documented. 
You might well drive people to the other airlines if you allow 
the cell phone usage. I mean, I fly transcontinental almost 
every week. I just can't imagine six hours and some odd minutes 
sitting next to somebody hearing about a lot of things I really 
don't want to hear about. You know, I think you are going to 
have problems with air rage, and then this whole issue of sort 
of the foot in the door.
    Certainly transmitting data or text, that is, if we have 
addressed fully all of the potential safety concerns and there 
isn't even a one in a million chance the plane is going to go 
down because of a damaged unit or lose control, then we might 
go in that direction. But I would hope in echoing the earlier 
comments that we will not allow voice, because I worry that, if 
it is allowed, that some of the weak knees in the airline 
industry will look at it as an edge to try and get a foot up on 
their competitor. Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentleman. Mr. Kuhl.
    Mr. Kuhl. I pass.
    Mr. Mica. Thank you. Ms. Norton.
    Ms. Norton. Thank you very much for this hearing, Mr. 
Chairman. The nuisance and the value of cell phones is of 
course legendary by this time, everything from the ring to 
conversation in decibels that are calculated to go above what 
is happening in the room so that the person on the other end 
can hear you and you can annoy everybody else.
    We have got new technology, we need a new code of conduct, 
and I think this hearing helps us to move in that direction.
    I am also concerned, frankly, about with what this new 
technology can do in ways that were never imagined before like 
detonate explosives. I think it is worth considering that this 
may no longer simply be a matter of nuisance but could go far 
beyond that at a period when we are still in the post 9/11 era. 
I note that Mr. Chertoff announced yesterday that the 30-minute 
rule, no matter what your own emergency, you have got to stay 
in your seat only if you happen to be taking off or coming in 
to the District of Columbia for 30 minutes.
    Mr. Chairman, this was a perfect example of how we get 
stuck no matter what this committee does. And this committee 
had done its work. We had hardened the doors, billions of 
dollars of on-the-ground security where you have got to do it 
or it simply is not going to get done, even guns, a very 
controversial notion of some pilots able to have guns has taken 
us more than 4 years to say, oh, by the way, if you have to go 
to the john, you can go when you are coming in or going out of 
Washington. I mean, what would have happened, of course, is if 
somebody got up and forgot, the whole plane was going to get 
panicked because, oh, you rose when you weren't supposed to 
rise and people were threatened that the whole plane would have 
to turn around. Invariably I can see that.
    But, Mr. Chairman, I do remind our witnesses that this 
committee felt even more strongly about general aviation, and 
there was an announcement that within 90 days from, I don't 
know, it was about a month or perhaps six weeks ago, that some 
general aviation would be able to come into the Nation's 
capitol. That is just like the 30-minute rule, only applicable 
here. Here, the charter matter, the general aviation matter 
only applicable here, sending out the clear message: We don't 
know how to protect our capitol. There was some rumbling that 
maybe something was happening even to that announcement of a 
change. I will want to hear and I am sure the committee will 
want to hear about that.
    If I may say so, the cumbersome, nonsensical restrictions 
on general aviation as it came into here were almost laughable. 
It reminds you of the 30-minute rule. So I will be very 
interested--I have three other committee hearings going on at 
the same time--as to your progress on general aviation opening 
in the Nation's capital more than four years after 9/11. And I 
thank you, Mr. Chairman.
    Mr. Mica. I thank the gentlelady. And I thank all the 
members for their work on the 30-minute rule and also for 
reopening Reagan National to civil and general aviation again. 
It does take a long time to get some of these long overdue 
changes.
    Are there any other opening statements?
    Ms. Millender-McDonald. Mr. Chairman.
    Mr. Mica. Ms. Millender-McDonald.
    Ms. Millender-McDonald. Thank you so much. I would like to 
just go on record saying that I think it is also a nuisance; 
that when I travel 12 hours a week from here to California, I 
appreciate the time away from my cell phone. And of course 
Gameboys are a different story. But I really do think that all 
of these devices should be turned off during flight time. I 
think it is not only a safety feature, I think it is a security 
feature. And with the Gallup polls showing that 68 percent of 
Americans are opposed to cell phone use on aircrafts, I think 
we should adhere to that. I look forward to the witnesses. I do 
have a statement to submit for the record, and I ask unanimous 
consent to do so. Thank you, Mr. Chairman.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record.
    And if there are no further opening statements, we will 
turn to our first panel. We do expect some votes here shortly, 
but we might be able to get through a couple of the witnesses.
    We have Mr. Nicholas Sabatini who is the associate 
administrator for aviation safety of FAA. Mr. Julius Knapp, 
deputy chief, office of engineering and technology with the 
Federal Communications Commission. Ms. Laura Parsky, and she is 
a deputy assistant Attorney General, criminal division, of the 
Department of Justice. And accompanied by Patrick Kearney, and 
he is senior policy advisor, U.S. Department of Homeland 
Security. And, finally, David Watrous, president of RTCA.


STATEMENTS OF NICHOLAS A. SABATINI, ASSOCIATE ADMINISTRATOR FOR 
  AVIATION SAFETY, FAA; JULIUS KNAPP, DEPUTY CHIEF, OFFICE OF 
ENGINEERING AND TECHNOLOGY, FEDERAL COMMUNICATIONS COMMISSION; 
   LAURA PARSKY, DEPUTY ASSISTANT ATTORNEY GENERAL, CRIMINAL 
    DIVISION, DEPARTMENT OF JUSTICE, ACCOMPANIED BY PATRICK 
  KEARNEY, SENIOR POLICY ADVISOR, U.S. DEPARTMENT OF HOMELAND 
       SECURITY; AND DAVID WATROUS, PRESIDENT, RTCA, INC.

    Mr. Mica. Welcome.
    The procedure will be we allow basically five minutes for 
presentation. If you have a lengthy statement or additional 
information you would like to have made part of the record, 
please feel free to request that through the Chair.
    Welcome back, Mr. Sabatini, with FAA. And you are 
recognized.
    Mr. Sabatini. Good morning, Mr. Chairman, and thank you, 
Mr. Costello, and Members of the Subcommittee.
    It is a pleasure to review FAA policy and rules regarding 
the use of portable electronic devices, or PEDs, on aircraft 
and the possible impact of a proposed rulemaking by the FCC to 
relax its ban on the use of certain cell phones on aircraft. 
Above all, I am here to represent the safety of the flying 
public and flight crews.
    Let me be clear. Regardless of the final outcome of the 
FCC's proposed rulemaking, the FAA's safety regulations 
regarding PEDs on board aircraft will remain in place. FAA has 
the authority and the expertise to assure the highest standards 
of safety.
    To prevent potential interference with aircraft 
communication and navigation equipment, the FAA has regulations 
prohibiting use of PEDs with some limited, specified 
exceptions. Our regulations do allow limited use of PEDs when 
the aircraft's operator has shown that the use will not 
interfere with the aircraft's navigation or communications 
systems. This general exception sounds deceptively simple. I 
assure you, it is not. Unlike older aircraft, with their cable 
and pulley flight control systems, today's airliners are modern 
"fly-by-wire" aircraft. These modern aircraft depend on clear 
electronic signals to translate pilot control input to the 
aircraft control surfaces.
    The FAA will continue to work with other agencies, such as 
the FCC, and industry consensus groups, such as RTCA, to stay 
out front on this issue. We want to ensure technology developed 
to facilitate cell phone and other types of communication from 
aircraft do not interfere with on-board systems or with 
communication and navigation.
    To understand the risks that PEDs can pose for aircraft, it 
is important to understand electromagnetic interference. All 
electronic devices emit electromagnetic waves.
    PEDs fall into two groups, intentional and unintentional 
transmitters. Intentional transmitters emit to interface with 
other devices or systems. Examples are cell phones, two-way 
pagers, and wireless modems. Unintentional transmitters are all 
other electronic devices such as games, laptop computers, and 
Personal Data Assistants. Unintentional transmitters emit 
electromagnetic waves whenever they operate.
    Here is the issue. The aircraft's onboard control, 
communication, and navigation systems can be affected by 
intentional and unintentional PED emissions. The chance of this 
occurring is greater with intentional transmitters such as cell 
phones. To prevent possible interference during the critical 
phase of flight, that is takeoff and landing, we recommend air 
carriers prohibit the operation of any PED during these phases 
of flight.
    Under FCC rules, an air carrier may permit passengers to 
use their cell phones when an aircraft is on the ground. 
Passengers must turn off their phones once the aircraft has 
left the gate.
    With advances in cell phone technology, FCC now believes 
its rule banning 800 megahertz cell phone use in flight may be 
lifted provided certain issues are mitigated by onboard 
equipment installation, such as a "pico cell" installed on the 
aircraft that acts as an antenna for onboard callers. The "pico 
cell", or similar equipment, would limit the frequency output 
of cell phones onboard the aircraft and ensure cell phone 
transmissions would not interfere with ground networks, which 
would address FCC's concerns.
    FAA is not changing its rules. If an air carrier elects to 
take advantage of the FCC's proposed rule and allow cell phone 
usage during flight, the carrier must determine which phone 
models will work on its onboard system, and that the system 
will not interfere with the aircraft's navigation or 
communications systems. The air carrier must also determine 
whether the system meets FCC requirements. Thus, in the context 
of the proposed FCC rule, an air carrier will have to obtain 
FAA certification of the pico cell equipment as part of the 
aircraft. This is consistent with current FAA certification 
processes. Providing passengers with new communication 
technology raises what FCC Commissioner Copps refers to as the 
"annoying seat mate issue." This is largely a social issue, yet 
there are safety implications. We are concerned that, should 
in-flight cell phone use be permitted, flight attendants could 
be distracted from their critical safety responsibilities if 
they are called upon to deal with irate passengers.
    Mr. Chairman, FAA will continue to assure safety by 
enforcing and maintaining its regulatory oversight on the use 
of all PED onboard aircraft. This concludes my testimony. And I 
am happy to answer any questions that you and the other Members 
of the Subcommittee may have.
    Mr. Mica. Thank you. And we will hold questions. We will 
try to get Julius Knapp in before we go to votes. So welcome, 
sir. You are with the Federal Communications Commission, and 
you are recognized.
    Mr. Knapp. Good morning, Chairman Mica, Ranking Member 
Costello, and members of the subcommittee. Thank you for this 
opportunity to appear before you today on behalf of the FCC to 
discuss the regulatory structure and engineering parameters 
related to cellular phones on aircraft.
    The FCC is an independent U.S. Government agency directly 
responsible to Congress pursuant to the Communications Act of 
1934 as amended. The statute charges the Commission with the 
regulation of interstate and international communications by 
radio, television, wire, satellite, and cable. Within the 
Commission, the Office of Engineering and Technology, or OET, 
is responsible for technical aspects involved in managing the 
use of the Nation's airwaves or radio spectrum. In carrying out 
this responsibility, OET works in collaboration with other 
bureaus and offices within the Commission to evaluate the 
potential for radio interference among various radio services 
and equipment. The Commission's rules at Section 22.925 
prohibit the use of cellular phones in the 800 megahertz band 
on aircraft except for aircraft on the ground. The Commission 
codified these rules in 1991 after concluding that the 
interference caused by in-flight use would be disruptive across 
a wide area and affect large numbers of users on the ground.
    Although the Commission prohibits the use of cell phones 
while airborne, its rules provide 4 megahertz of spectrum in a 
separate frequency band for use by the Air-Ground 
Radiotelephone Service. The Commission recently provided for 
phase-out of the existing Air-Ground Radiotelephone Service and 
restructuring of the band to allow the provision of broadband 
services on aircraft by one or two new licensees. In addition, 
the Commission has granted a waiver to AirCell, Inc., that 
permits AirCell to offer air-ground service in spectrum 
allocated to the cellular radio service using specialized 
plane-mounted antennas and handsets which are employed 
primarily on private aircraft.
    The Commission's rules do not address potential 
interference to aircraft communications and avionics systems 
including all radio and electronic devices. The FCC defers to 
the FAA to regulate devices and activities that might interfere 
with the safe operation of the aircraft as you have already 
heard.
    On December 15, 2004, the Commission adopted a notice of 
proposed rulemaking to consider whether new technological 
developments warrant changes to the current rule prohibiting 
airborne usage of cellular handsets. The Commission closed its 
initial comment period on May 26, and reply comments are due on 
August 11.
    In this proceeding, the Commission has received comments 
from over 7,000 individuals and more detailed substantive 
comments from about 30 parties which we are in the process of 
reviewing. The NPRM invited comment on whether technological 
advances that have occurred since the original adoption of the 
rules could permit operation of wireless handsets and devices 
including those used for broadband applications on aircraft 
without causing interference to terrestrial radio services. The 
notice also invited comment on several potential technical 
approaches that could permit such operation.
    In addition, the Commission requested comments on whether 
or not any restrictions adopted should apply to handsets and 
devices operating under other parts of the Commission's rules.
    As I mentioned, the Commission received a large number of 
comments. Many individuals expressed concern that allowing the 
use of cell phones on airplanes would be a nuisance to other 
passengers. A number of commenters that addressed the 
substantive interference issues argued generally that, under 
certain conditions, the use of cell phones on aircraft would 
not pose undue interference to terrestrial radio services.
    In the NPRM, the Commission stated that any steps the 
Commission ultimately may take will be subject to the rules and 
policies of the FAA and aircraft operators with respect to the 
use of personal electronic devices including cell phones. Even 
if the Commission were to adopt rules pertaining to the use of 
wireless equipment on aircraft, airborne use of such equipment 
will not be permitted unless it is in accordance with the FAA 
rules and requirements. Moreover, the Commission, the FAA, or 
the airlines could, in modifying and prohibitions against the 
use of cell phones on aircraft distinguish between voice and 
data communications in order to minimize nuisance to other 
passengers.
    The Commission also recognizes that law enforcement has 
filed comments in response to the notice indicating that use of 
cell phones and other radio devices onboard aircraft could pose 
concerns relative to the Communications Assistance to Law 
Enforcement Act and to Homeland Security. The Commission will 
carefully consider these important concerns as the proceeding 
continues.
    The Commission appreciates the interest of this 
subcommittee in the current rulemaking. The Commission's staff 
will study this matter in light of the comments that we have 
received. And this concludes my testimony, and I am pleased to 
answer any questions members of the committee may have. Thank 
you.
    Mr. Mica. Thank you, Mr. Knapp.
    What we are going to do for the other three panelists is we 
are going to recess for approximately 20 minutes, maybe about 5 
after. Take a quick break, and then we will get back to Ms. 
Parsky and the other witnesses. So we will stand in recess 
while we have these votes.
    [recess.]
    Mr. Mica. I would like to call the subcommittee back to 
order.
    I would like to apologize for the delay. We were hearing 
from our first panel of witnesses. I will recognize now Laura 
Parsky, Deputy Assistant Attorney General for the Criminal 
Division of the U.S. Department of Justice.
    Welcome, and you are recognized.
    Ms. Parsky. Thank you.
    Good morning, Mr. Chairman, members of the subcommittee. I 
appreciate the opportunity to join you today to discuss the use 
of cell phones on aircraft and some of the attendant and 
critical law enforcement public safety and national security 
issues we hope will be considered carefully.
    The Department of Justice appreciates this subcommittee's 
leadership in examining these issues. As we all are aware, the 
high-tech age in which we now live is offering and will 
continue to offer tremendous opportunities and efficiencies in 
communications technology. The use of wireless 
telecommunications services in particular has proliferated in 
recent years.
    The Department of Justice recognizes that the ability to 
use wireless telephones in flight would offer the public 
tremendous convenience and flexibility. Further, the ability to 
enhance communications on board aircraft could significantly 
increase the capabilities of public safety and Homeland 
Security personnel who protect our citizens on those aircraft.
    However, it is an unfortunate reality that despite the 
tremendous benefits new technologies bring to our society, 
there are always some who will misuse these technologies for 
criminal and sometimes lethal purposes. It is, of course, no 
secret that today's terrorists and criminals use cell phones, 
among other communications devices, to coordinate their illicit 
activities. The ability to use cell phones for this purpose in 
the air adds another dimension to terrorist coordination 
efforts.
    Because of the realities of today's world, we believe that 
if in-flight cell phone use is to be allowed, reasonable steps 
can and should be taken to minimize risks to our national 
security and public safety. With the institution of important 
protective measures up front, the use of advanced 
communications technologies on board aircraft can provide great 
benefits to both private citizens and law enforcement alike.
    I would like to share with you a few of the measures that 
we believe would make this service safer for all concerned.
    First, unfortunately, we can anticipate that criminals and 
potentially terrorists will attempt to misuse cell phones on 
board aircraft to facilitate their unlawful activities. In such 
instances, lawfully authorized electronic surveillance is an 
invaluable and necessary tool for Federal, State and local law 
enforcement to protect national security and public safety.
    The Communications Assistance for Law Enforcement Act, 
known as CALEA, maintains law enforcement's ability to conduct 
court-ordered electronic surveillance despite changing 
telecommunications technologies by requiring telecommunications 
carriers, including cellular and other wireless carriers, to 
build into their technologies to have the capabilities 
necessary to allow law enforcement to implement court orders 
for electronic surveillance.
    Although CALEA would apply to cellular and other wireless 
carriers in the context of air-to-ground communications, the 
Department of Justice has asked the FCC to insure that CALEA 
would remain effective in emergency situations on board 
aircraft in-flight.
    In addition to insuring timely interception capabilities, 
law enforcement should be able to maximize its ability to 
respond to the unique circumstances of a crisis on board an 
aircraft in flight. Unlike on the ground, in the event of a 
hostage situation or bombing threat in flight, law enforcement 
cannot physically surround and penetrate an aircraft moving 
hundreds of miles per hour through the air. In such situations, 
obtaining knowledge about on-board communications and some 
control over those communications become critically important 
for law enforcement and can influence time-sensitive decisions 
about how to respond to the threat.
    Therefore, in order to maximize law enforcement's efficacy 
in responding to threats on board aircraft, the Departments of 
Justice and Homeland Security have requested that if the FCC 
allows air-to-ground cell phone service, it requires certain 
operational capabilities for such service. These additional 
capabilities include, for instance, the ability expeditiously 
to locate on-board cell phone users, interrupt, redirect and or 
terminate cell phone calls, and identify the origin and 
destination of cell phone calls to and from an aircraft.
    Another area of concern for law enforcement, public safety 
and national security, is the risk that a terrorist could use a 
communications device as a remote-controlled, improvised 
explosive device. Although we recognize that the potential for 
terrorists to do this already exists, the risk of RCIED use may 
at least in theory be increased as a result of the ability of 
aircraft passengers now to use effectively personal cell phones 
in flight. Therefore, we have recommended a number of steps 
that could help reduce the risk that a terrorist could reliably 
trigger RCIEDs on board aircraft in flight.
    I want to touch briefly on just one more area. In recent 
months there has been significant attention given to the effect 
that in-flight wireless phone use could have on the overall 
atmosphere of flights and the conduct of passengers, such as an 
increase in air rage incidents. The Departments of Justice and 
Homeland Security have recommended that the FCC, in 
consultation with the airlines, establish rules and policies to 
diminish the probability that law enforcement's on-board 
mission will either be complicated or compromised unnecessarily 
by disputes concerning in-flight cell phone use.
    Mr. Chairman and members of the subcommittee, thank you 
again for the opportunity to testify today and for your 
attention to important national security law enforcement and 
public safety issues related to the use of cell phones in 
flight. We look forward to working with you and the FCC to 
address these issues going forward.
    At this time, I would be happy to answer any questions you 
may have.
    Mr. Mica. Thank you, we will hold questions.
    I guess you brought Patrick Kearney with you. Nice to see 
him.
    You are not going to make any comments, are you Pat?
    Mr. Kearney. No, sir, happy to be here today representing 
Homeland Security.
    Mr. Mica. Thank you.
    We will recognize David Watrous, President of RTCA. 
Welcome, sir, and you are recognized.
    Mr. Watrous. Good morning, Mr. Chairman and members of the 
Aviation Subcommittee. Thank you for the opportunity to appear 
before you today on the subject of cell phones and similar 
portable electronic devices. I have prepared a written 
statement for the record, and that has been made available.
    From an aviation perspective, the airborne use of cell 
phones and similar devices can be characterized as a tradeoff 
of safety versus convenience. Safety is always paramount. Given 
that priority, RTCA is working to find ways cell phones can be 
safely operated on board aircraft. We plan to have our 
recommendations regarding airborne use of cell phones available 
for FAA by December of 2006.
    By way of background, RTCA is a utilized Federal advisory 
committee. Our products are developed by volunteers, mostly 
engineers, collaborating in a functioning peer review type of 
environment. FAA uses our recommendations as a partial basis 
for certifying avionics. Other government and private sector 
entities use our products when making a variety of aviation 
decisions.
    Portable electronic devices, especially those that 
intentionally send out signals such as cell phones, have the 
potential to interfere with avionics. Although PEDs have the 
potential to interfere with multiple aircraft electronic 
systems, it is easiest to grasp the impact of interference in 
the context of aircraft navigation.
    When the weather is bad, pilots totally depend on signals 
from navigation-related avionics to safely fly the plane. 
Interference can prevent the reception of radio navigation 
signals or, worse yet, can distort those signals. The risk from 
interference is greatest when the aircraft is closer to the 
ground, when it is taking off or landing in bad weather. Should 
PED interference occur during that period of time, the pilot 
could unknowingly guide the plane toward a nearby mountain or 
building, rather than to a safe departure or landing.
     RTCA committees have addressed the potential of PED-
induced interference four times since the 1960s. In the past, 
we have focused on potential interference from hearing aids, 
portable dictating device, portable radios, laptop computers, 
games, CD players. Each of those committees has concluded that 
electronic devices, especially digital electronics, have the 
potential to emit radio frequency signals and interfere with 
sensitive aircraft communication, navigation, and control 
systems.
    There are two primary aspects associated with potential 
PED-induced interference. One is linked to the relative power 
of the PED signal. The other is related to the design and use 
of portable electronic devices. The signal from a passenger-
carried electronic device, although being a very small signal 
but being transmitted inside the airplane, has the potential to 
overwhelm the signals used by aircraft systems. This is 
especially critical if the aircraft is navigating using signals 
from far-away satellites.
    There are also fundamental differences in the design 
approval and use of avionics first as portable electronic 
devices.
    Avionics and flight control components are rigorously 
qualified before they are certified for aircraft use. These 
certified aircraft systems are then operated by trained 
professional crews.
    Portable electronic devices are not qualified to the same 
standards. Furthermore, PED users generally are not familiar 
with the operating parameters of their handheld device or the 
potential hazards of operating that device when airborne.
    RTCA's current effort is primarily focused on analyzing 
potential interference from cell phone and some PDAs. Mr. David 
Carson of the Boeing Company and Mr. James Fowler of U.S. 
Airways are leading our activity. The committee includes 
approximately 150 members from essentially every segment of the 
aviation and consumer electronics communities. We have got 
folks from the avionics manufacturers, aircraft manufacturers, 
airlines, pilot and flight attendant associations, regulatory 
agencies, consumer electronic device manufacturers and various 
industry associations.
    Our committee is working to do three things: to assess the 
impacts that transmitting portable electronic devices can have 
on aircraft operation; to develop strategies to mitigate 
identified potential interference; and to work with the 
regulatory authorities to approve the safe use of transmitting 
portable electronic devices.
    The committee is now collecting data, performing analyses 
and developing repeatable processes to replace anecdotal 
information.
    In summary, sir, RTCA is working with FAA and FCC and is 
developing recommendations that maintain or improve aviation 
safety and can accommodate the desire to use wireless 
technologies on board the airplane.
    Thank you for the opportunity to testify on this important 
subject. I would be pleased to address the questions, sir.
    Mr. Mica. Thank you.
    I thank all of our panelists for their testimony.
    What we will do now is proceed with some questions. Let me 
start first from the--I would ask the technical side, Mr. 
Sabatini and maybe Mr. Watrous and Mr. Knapp, we have two 
systems that are either being used or tested, one is with the 
pico technology and the other is with the, I guess, the 
Verizon-United activity. Have all of your agencies checked off 
on the technologies that are in place, and are they safe?
    Mr. Sabatini.
    Mr. Sabatini. We have been working with QUALCOMM and 
American as well as Verizon and United Airlines. While those 
companies are testing, we are now studying the results of those 
tests to determine further--
    Mr. Mica. You don't have any pico in operation on an 
aircraft or tested on an aircraft?
    Mr. Sabatini. Not as a matter of routine, sir.
    Mr. Mica. But are there some on an aircraft being tested?
    Mr. Sabatini. On American Airlines, we have the pico 
system. QUALCOMM, yes.
    Mr. Mica. Okay. And we have the Verizon-United?
    Mr. Sabatini. Right. That is a voice over, WiFi IP.
    Mr. Mica. Right. That is also on aircraft now?
    Mr. Sabatini. It is on a Boeing 757 that is being tested.
    But, again, I want to make clear, Mr. Chairman, those are 
being tested, and they have not yet demonstrated to the FAA--
    Mr. Mica. But you can't say whether from a safety 
standpoint yet you have not determined that both of those 
systems are, in fact, safe with the technology and protections 
that they have incorporated in the equipment?
    Mr. Sabatini. Exactly, sir. We are not ready to move 
forward exactly and say we are ready to commit.
    Mr. Mica. When do you think you will have that evaluation 
complete?
    Mr. Sabatini. That would depend on how rapidly the folks, 
QUALCOMM and Verizon and the respective carriers, proceed with 
furthering their application with us. They need to determine 
and demonstrate to us that they have satisfied all the rigorous 
test standards that are in place for them to demonstrate.
    Mr. Mica. Now, was I told that the WiFi, again, the 
Verizon, that that may already been on some European aircraft 
and in use? You don't have any say in that, or do you have any 
say in that? I guess FAA can say that you can't turn that on or 
use it in U.S. airspace, is that the case?
    Mr. Sabatini. Well, if it was going to be a system operated 
by a U.S. air carrier, then certainly they would be subject to 
the rules that apply here in the United States.
    Mr. Mica. So, right now, they just have to turn it off if 
they have got it?
    Mr. Sabatini. Exactly. FAA Part 91 is under general 
operating rules, and I would contend that a foreign air carrier 
operating in these United States must demonstrate the same 
thing.
    Mr. Mica. Okay. Mr. Watrous, you were introduced as RTCA, 
and that was--I guess, originally stood for Radio Technical 
Communications for--or Commission for Avionics. You are the 
technical side. What is your current opinion of the two 
technologies that are being tested? Have you reached any 
conclusion?
    Mr. Watrous. No, Mr. Chairman. The conclusion--
    Mr. Mica. When and where will you be in reaching a 
conclusion, as far as time? Do you actually get into any 
certification or approval of this equipment?
    Mr. Watrous. We have this group that is open to the public 
for participation. They met as recently as a week or so ago. 
They are collecting the data, analyzing the data. They are 
involved--and, in fact, the QUALCOMM folks and others are 
participating in that activity.
    At the present time, we expect to have recommendations in 
December of 2006. The reason for that is it gets to be a pretty 
complicated sort of a problem, depending on the type of device, 
the aircraft, the environment, et cetera.
    As far as certification--
    Mr. Mica. Is there a certification process that you have 
or, Nick--or, Mr. Sabatini, I guess you get into the approval 
for aircraft and you get into sort of the equipment?
    Mr. Watrous. Yes, sir. I think it is reasonable to say that 
the recommendation that will come from RTCA will be one of the 
criteria but not the only criteria used by the Federal Aviation 
Administration to determine whether or not these devices could 
be safely used on board the airplane.
    Mr. Mica. So you make some type of evaluation. I guess 
there are all different types of technology.
    Mr. Watrous. Yes, sir.
    Mr. Mica. Then I guess it would vary among--if you have 
different frequencies or different models and things of that 
sort.
    Then, Mr. Sabatini, FAA would get into yes or no for use of 
this specific equipment on the aircraft; is that correct?
    Mr. Sabatini. That is correct, Mr. Chairman.
    Mr. Mica. Now, the other--first, I want to cover safety, 
because that is primary importance. We have to know whether 
turning these cell phones on puts us at some safety risk. I 
have thought about this. You know, I would venture to say I 
probably--I left my cell phone on in my briefcase or something, 
realized when I got on--I mean, got off, that I still had a 
cell phone or a BlackBerry on. I would venture to say any large 
aircraft, somebody has made the same error, so these planes 
aren't dropping out of the sky as a result of my forgetfulness 
or mistake or others. So there is quite a bit of this 
transmission already going on.
    I have always wondered, is that safe? Does it really pose a 
risk--if you can't say with any honest definition at this point 
that it does? Mr. Sabatini.
    Mr. Sabatini. We do have a recorded incident where--
    Mr. Mica. You do.
    Mr. Sabatini. It was a regional jet, Canadair regional jet, 
being operated in Bosnia where shortly after departure they 
received a fire warning. They returned and executed an 
emergency landing. It was later determined through an 
investigation that a cell phone in the baggage in the luggage 
compartment, so to speak, was left on. That was the 
determination; and we then subsequently issued an advisory, an 
air worthiness directive, to correct for the aircraft and to 
prevent that kind of susceptibility.
    Mr. Mica. But nothing domestic?
    Mr. Sabatini. Nothing domestic. However, there is test data 
that certainly strongly suggests that these devices and the 
electromagnetic field that it produces does, in fact, interfere 
with our systems.
    Mr. Mica. We have sort of progressed, because I remember at 
the beginning there was no cell phones allowed at all in an 
onposition when the door closed. Also, when you landed, until 
you got to the door. You have modified that to a degree. You 
said that--I think someone said in testimony that the biggest 
threat or problem might be during takeoff or landing, again due 
to the massive amount of avionics. So you have sort of made 
progressive changes in your regulation, is that correct, Mr. 
Sabatini?
    Mr. Sabatini. Well, the regulation is the same as it has 
always been. There is a regulation that allows an air carrier 
to make a determination that these devices that they wish to 
allow to be used on board the aircraft are not, in fact, 
interfering with the aircraft's systems.
    Mr. Mica. So they can already allow this?
    Mr. Sabatini. Theoretically. But the technology is not 
there once you get to an airborne condition. Then we have the 
issue with the FCC in terms of terrestrial interference.
    Mr. Mica. So it wasn't a change in your policy that 
airlines, when you land now, you can--many of them say you can 
begin using your cell phones as soon as the aircraft is on the 
ground. That wasn't a change in your policy?
    Mr. Sabatini. It was not a change in our policy. It is what 
was already permitted by the rule.
    Mr. Mica. Another--yes, safety is very important.
    I think, Ms. Parsky, the question of use of cell phones for 
some type of terrorist or criminal activity on board an 
aircraft, are you checking with both this RTCA group and also 
FAA? Do you coordinate your efforts so that any device that is 
used or approved has elements that give you some protection 
from a security standpoint, or are you just an outsider in this 
process?
    Ms. Parsky. Well, most of our communications are with the 
providers themselves. We work with a great number of the 
providers to advise them to what we believe the legal 
requirements are, for what they need to be able to provide to 
law enforcement but also to help them to voluntarily comply 
with law enforcement needs. So it is through those interactions 
with the providers.
    Mr. Mica. FAA checkoff, for example. Like you said, they 
might want to be able to have the some capability to turn all 
cell phones off at once. You are not checking with the folks 
that are approving this, either setting some--an evaluation or 
certification and saying that we are requiring this as a sort 
of a standard from a national security or security standpoint?
    Ms. Parsky. Well, through the FCC, there are several areas 
where the FCC looks to the Justice Department to provide a 
national security assessment. So to the extent that these 
providers are also being regulated by the FCC, that would come 
to us to examine what the national security implications are. I 
am not aware of the same procedures through the FAA, but I may 
be mistaken.
    Mr. Mica. Mr. Knapp, is that your responsibility?
    Mr. Knapp. One of the things that we looked at as part of 
the licensing process is CALEA compliance; and where law 
enforcement has raised concerns, we insure they are addressed 
before the license is issued.
    Mr. Mica. Now, if you--after you finish your process, say 
that we don't have any concerns, then who does that 
responsibility fall to, FAA?
    Mr. Knapp. Relative to the issues that Justice--
    Mr. Mica. Security, right.
    Mr. Knapp. Yes, the securities. Generally what has happened 
is the licensee or the respective licensee discusses directly 
with law enforcement their compliance with the statutes. Our 
experience has been, in every case so far, that their concerns 
were addressed. Once that happened, then we were in a position 
to grant the license.
    Mr. Mica. I may have additional questions. We will probably 
submit some for the record later.
    Let me yield now to Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    On this 757, United-Verizon WiFi, how is the WiFi 
transmitted from the plane? Is that one of these pico cell 
devices or how is it? Is it a satellite uplink or how are they 
doing that? Anybody know?
    Mr. Sabatini. Congressman, it is not a pico cell. It is 
basically an Internet connection that works just as you would 
have an Internet connection at home, except that it is 
wireless.
    Mr. DeFazio. Well, no, I mean, the Internet--I am on the 
plane. I have my laptop. I am in a, you know, WiFi zone. Okay, 
that is the airplane. The question is, how does the airplane, 
you know, coordinate and transmit that data? I mean, they are 
using some kind of broadband technology of some sort. It must 
be--is it satellite? Satellite?
    Mr. Sabatini. Yes. It is satellite.
    Mr. DeFazio. Okay. All right.
    Mr. Sabatini. And it is a system that meets FAA approval 
for supplemental-type equipment to be installed on the 
aircraft.
    Mr. DeFazio. Okay. I am just trying to get a handle exactly 
on how that worked. Okay, so if it is a broadband WiFi 
connection and I want to use voiceover Internet protocol, who 
is that up to? If you have certified this device for the plane, 
who is going to control whether or not someone is using a head 
set and microphone and talking over the Internet through their 
laptop computer?
    Mr. Sabatini. Once the air carrier has demonstrated to the 
FAA through this rigorous STC process that our concerns for the 
safe operation of the aircraft are satisfied, then that carrier 
may permit the use of voiceover. It then becomes a social 
issue. The concern that we continue to have is in this use of 
voiceover, could flight attendants be drawn into an altercation 
and could this possibly interfere with crew members and 
interfere with their responsibilities? So, to that extent, I 
have a continuing safety concern in that regard.
    Mr. DeFazio. So first we would certify the electronic 
safety of these devices and their capability, and then there 
would be another level of review if an airline said we actually 
want to begin to apply this, and we intend to allow voiceover 
Internet communication?
    Mr. Sabatini. Again, if they have demonstrated that there 
is no interference with the safe operation of the aircraft, 
they may allow the use of that voiceover as well as the text 
messaging piece of it.
    Mr. DeFazio. All right. Now I don't remember the name of 
the gentleman from Embry-Riddle. Perhaps Mr. Watrous knows or 
perhaps you were here, Nick. I don't remember. But we did have 
a hearing on this previously, and he had done a lot of research 
on these issues.
    He said a damaged cell phone or computer or other PED could 
cause a problem because it would be transmitting in a way that 
it wasn't, you know, it is not supposed to. So the question 
would be, is that still a concern? And if that is a concern, 
how are you going to verify that all of these myriad individual 
devices that people bring on--
    I mean, first, I guess you would have to satisfy each 
device and say if this was properly working, you could use this 
device. But how does one determine whether a device has ever 
been dropped, damaged, there was a problem with the shielding, 
modified by the consumer or something like that that could 
cause a problem? How are we going to know that when people 
bring these things on the plane and want to start using them?
    Mr. Sabatini. We place that responsibility on the air 
carrier. They are required to not only comply with all the 
rules and regulations, they are expected to operate at the 
highest levels of safety. They must demonstrate that when they 
come to us and tell us that they have developed these tests 
through an installation through STC, for example, and that they 
would identify the makes and models that would be permitted on 
board the aircraft. It would then be up to the air carrier to 
police that only those makes and models are being used on that 
aircraft.
    Mr. DeFazio. This is a nightmare.
    So the flight attendants can be walking all up and down the 
aisles. They can have five different BlackBerries, determining 
which version--I mean, they all transmit, some radio, some 
cells, some different--some frequencies are different. So they 
will have to be scrutinizing for model numbers. You know, 
everybody pull out the device you want to use. I have got the 
list. I walk down and like I put a checkmark on your forehead 
or something. You can use it. I will remember when I come back 
I said it was okay for you.
    That is a concern. But it still doesn't go to the issue 
that the professor--and I think the committee needs to, you 
know, get back in touch with this gentleman. I am sure the 
committee staff can dig up his name--that if a device has been 
damaged, which isn't necessarily visible, it still doesn't get 
to that.
    He was saying these devices as regularly configured, cell 
phones, it is very improbable that they could cause 
interference with a fly-by-wire in a catastrophic wire 
navigation. But if damaged it is more probable, and the damage 
could be not at all visible. It was dropped. It was modified. 
You can't tell by looking at it.
    I mean, how are we going to get to that level of concern? 
Are we going to have some kind of detector on the plane in 
addition to the detection device that looks for random signals 
that are, you know, stronger or outside the realm of what 
should be going to the device transmitting from the plane and 
then we would suddenly--like maybe shut something down because 
it detected a random--I mean, how are we going to deal with 
that?
    Mr. Sabatini. It certainly is a very difficult question to 
answer, sir. But we have and would require of the air carrier 
that they address these issues.
    Mr. DeFazio. Okay. I guess we--that will be interesting to 
see how they purport to answer that issue.
    Mr. Watrous, you are more technically inclined than we are. 
Do you have any comment on this line of questioning and these 
concerns?
    Mr. Watrous. Well, sir, we clearly don't have an answer to 
that question. It is a very difficult question to deal with. 
But part of this committee activity that is under way is 
looking at the various combinations and permutations of signals 
and what reasonably could go wrong, how to mitigate that sort 
of a thing. In many respects, that is the reason why it is 
going to take so long to come to some kind of a recommendation.
    Clearly, there are probably--well, clearly there are 
multiple potential solutions to the problem. One is to make 
sure from analysis and testing, data collection, that we have a 
pretty good grip on what the variety of interference could be.
    Then, as is the case in aviation--and Mr. Sabatini is far 
better qualified to speak on the subject than I am--after 
dealing with the technical issue, then there are some also 
potential policy decisions that can be taken. They might be 
able to mitigate the problem in the most risk-sensitive 
duration of flight, sir.
    Mr. DeFazio. Okay. This is a big hurdle. I have got to 
admit, and the Chairman might or might not remember, but I am a 
convert on this issue. You know, I initially bridled at the 
monopoly of Airphone, the crappy service and the extortionate 
price they charge. I always thought it would be good--this is 
sort of, you know, before the emergence of massive consumption 
of cell phones and sort of the emergence of the people who 
abuse the privilege of a cell phone to the detriment of 
everyone around them. But I did engage very much on that issue, 
because I was interested in breaking the monopoly.
    But this professor from Embry-Riddle was very firm in 
saying, you know, there is a possibility that you could cause 
serious interference with a fly-by-wire critical operation 
with--particularly coming from a damaged or modified device.
    So we will have to track him down, that testimony down--he 
had done some research on this--and certainly put him in touch, 
if he isn't already, with you folks. Because previous to that I 
had been convinced this is all about gouging the consumers with 
the earphone, which wasn't a very acceptable alternative.
    But now I have got a new set of concerns here that I think 
we are going to have to deal with, since he raised that safety 
issue. I just want to be sure.
    I really hate to think that someone who is carrying on 
about their date last night has a damaged unit and it causes a 
critical malfunction and we lose a plane because someone just 
couldn't wait until they landed on the ground to talk about how 
great last night's date was. That is just incredible.
    We will hear from the flight attendants in the next panel 
to talk about the social issues, which I think is another 
difficulty.
    Just--again, being a technical person, I heard or have read 
that there is--you wonder why people are shouting into their 
cell phone. I have been told that the reason is that because, 
unlike a land line, it doesn't have feedback, so you don't 
think you are talking as loud. Is that an explanation that you 
have heard, or why do people shout into their cell phones?
    Mr. Watrous. Sir, I have heard the same explanation, but I 
am not qualified to speak on that. I believe that we have a 
gentleman from QUALCOMM later on the panel, and he is certainly 
far better qualified to deal with it.
    Mr. DeFazio. All right. That would be another requirement 
if they wanted to use these things on planes, that they would 
have to build in whatever it is they use to reduce the 
shouting.
    The FCC, are you familiar with what causes this phenomena 
of shouting on cell phones?
    Mr. Knapp. Not as to why they shout, but it is a two-way 
link, same as a telephone. You should hear--
    Mr. DeFazio. But there is something about this, this 
article I read, something about a feedback thing built into a 
hardwire phone that was left out. But we will ask that, maybe 
QUALCOMM knows.
    Mr. Knapp. Sure.
    Mr. DeFazio. Thank you, Mr. Chairman. You have been 
generous with your time.
    Mr. Mica. Thank you.
    Mr. Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    This is for Justice or Homeland Security. In light of the 
FAA recently approving this wireless satellite interconnect 
WiFi that has been put on some of the United flights, do you 
have concerns over a terrorist detonating a bomb or some type 
of wireless explosive device? Would this be wireless system or 
is your main concern cell phones?
    Ms. Parsky. Well, I think, as we have tried to make clear 
both in our comments to the FCC and in my testimony today, we 
are concerned about the potential for any explosive devices to 
be used on airplanes, and there is certainly that risk today.
    When we are looking at rolling out a new technology and 
doing it in the very sensitive and unique context of an 
airplane, we are looking for ways that that risk potentially 
could be increased. What the focus here is is the increased 
connectivity, so the potential that there would be a reliable 
connectivity between those on the ground and those in the air, 
in the WiFi context, to the extent that is increasing the 
connectivity, there could be an increased risk.
    But I think, as we laid out in our comments, some of the 
security measures that we are looking for to mitigate those 
risks are specific to devices that a passenger brings on board 
his or herself. So not something that is built in but something 
that the passenger could bring on and could potentially 
manipulate.
    So there is a range of risks that are involved, and what we 
are trying to do is that, as these new technologies are rolled 
out, to bring to the attention of both the carriers and the 
regulatory bodies some of the measures that can be put in place 
so that we mitigate those risks up front.
    Mr. Westmoreland. Do you know exactly what those devices 
would be on the wireless network system or how it would be used 
to detonate one of these explosive devices?
    Ms. Parsky. Unfortunately, I don't know the technical 
specificities of the difference types of explosive devices. But 
what I can say is, with the increase in connectivity, it can 
cause potentially an increased risk. Certainly if it is not 
through a device that is already installed in the plane, but a 
device that you bring on the plane, a passenger brings on his 
or herself, that could also increase the risk. But I am afraid 
I am not familiar with the specific mechanics of it.
    Mr. Westmoreland. Thank you.
    Mr. Sabatini, you mentioned that you are leaving some of 
this up to the discretion of the air carriers. You know, people 
right now who are very sensitive to the cell phone use, or 
maybe it is just me, especially when you hear things like the 
London bombing and the different improvised explosives that is 
being used in Iraq and Afghanistan and other parts of the 
world, they are very sensitive to phone use. I know we are 
going to get more into the social part of it at a later date--
or later time today, but if you are on an airplane, it is very 
annoying sometimes if you have got a chatterbox sitting next to 
you or maybe a small child. I can't imagine somebody sitting 
next to me talking in Arabic or some other foreign language on 
a cell phone for a one-and-a-half-hour flight.
    Also, you know, the FAA has certain regulations that it has 
always put, such as maintenance and, I guess, glide patterns, 
different things that all airlines have to abide by. If an 
airline was going to--I am not saying any airline would, 
certainly not American or anyone else--would put safety, maybe, 
behind customer service a little bit, that was willing to do 
that, do you think that is an unfair advantage that the FAA has 
given some of these airlines to do, rather than what we as the 
public, the flying public, especially, look at the FAA as 
somebody that looks at our safety above and beyond everything 
else that goes on with the airline industry?
    Mr. Sabatini. Well, clearly, the FAA statutory authority is 
limited to safety. Once an air carrier has determined through 
testing--and it is a rigorous standard testing that we apply--
then they would receive certification to use that system on 
their aircraft.
    The aspect of the social issue is one over which I have no 
statutory authority. However, in considering that, it does 
begin to provide or give us concern that flight attendants 
could be drawn into altercations in settling matters between 
irate passengers. That does give us concern. If that were to be 
the case, we would go back to the air carrier and ask them to 
tell us how they are going to prevent those instances from 
continuing to occur.
    It is not just a choice that an air carrier can make to 
just arbitrarily choose to authorize the use of phones. First 
of all, it is voluntary for them to use. So in answer, I think, 
to your question about unfair competition or unfair advantage, 
as long as an air carrier is able to demonstrate to us through 
their testing under the rigorous standard that we will apply, 
they would be authorized to permit the use of PEDs. From a 
safety point of view, they must assure us that the PEDs are not 
interfering with the safe operation of the aircraft.
    Mr. Westmoreland. One last question, Mr. Chairman.Ms. 
Parsky said that they don't really know right now what type of 
devices that it would take to maybe use a wireless system to 
cause some problems. I am assuming that, since the FAA has got 
all these rigorous tests, you know what these devices are that 
would be immediate danger or could cause danger by interacting 
with this wireless network or be able to be used over a 
wireless network?
    Mr. Sabatini. Well, I wouldn't be familiar with what those 
illegal devices would be, but we would impose and have the 
requirement that an air carrier demonstrate to us and determine 
that the systems that they are going to ask to be installed on 
the aircraft to allow the use of cellular phones meet the 
standards.
    So it is up to the air carrier to decide, of the many 
hundreds of makes and models, which makes and models they would 
allow to be used in that approval. It would then be incumbent 
upon them to have the procedures in place to advise their 
passengers that these are the makes and models that are 
approved for use, and it is up to them to police that only 
those are being used.
    I understand that the technology may, in fact, prevent the 
use of those systems or cell phones that are not compatible 
with what has been approved on board the aircraft for 
transmitting a signal.
    Mr. Westmoreland. But your rigorous test, you think, is 
rigorous enough that it sifts and eliminates and vets through 
all these things that could be used?
    Mr. Sabatini. I think the best way to answer that question, 
sir, is to tell you that our rigorous testing standards apply 
for original-type certification of an aircraft. That today we 
have the safest air transportation system in the world, and it 
is that kind of standard that we will be applying.
    Mr. Mica. I thank the gentleman.
    Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. Just a couple of 
questions.
    We all know there are thousands and thousands of flights in 
the United States every day, thousands of people in those 
planes. I would daresay that probably in every one of those 
situations there is somebody that had a computer, a GameBoy, a 
BlackBerry, a cell phone or two or three that is left on, 
probably in every flight.
    Has there ever been an instance in the United States where 
any of those items have caused a problem with that aircraft? Do 
we know of any situation where that problem has ever occurred 
because somebody left a cell phone on or a computer or a 
BlackBerry or Blueberry or GameBoy or any of those things?
    Mr. Sabatini. As I said earlier, sir, there is only one 
recorded instance, and it was in Bosnia. Here in the United 
States--that same type of aircraft is operated here in the 
United States. It is a Canadair regional jet. The only data 
that we have is anecdotal.
    The other data that exists is through testing, which is 
going on in cooperation with the RTCA, which is a consensus 
group and which has many representatives from the industry to 
bring to light those kinds of issues that you are addressing, 
sir.
    Mr. Poe. So it has never happened that you know of in the 
United States.
    Mr. Sabatini. That I know of.
    Mr. Poe. Yes. Would you agree that there is probably 
somebody on an aircraft that has purposefully or accidentally 
left one of those computer devices on?
    Mr. Sabatini. That is a probability.
    Mr. Poe. Yes.
    As far as the other question I had, Ms. Parsky, following 
up on Mr. Westmoreland's comments, we are all concerned about 
air safety. But what makes us think if some outlaw is on a 
plane that wants to use a computer device like a phone to do us 
harm that they are going to turn it off because somebody tells 
them to? I mean, it defies logic that, if that is going to 
occur, they are not going to turn it off. They will go down to 
the lavatory and do whatever they have got to do.
    So I ask that question because are those capabilities, in 
your opinion, now possible to cause damage to an aircraft by 
somebody using a cell phone, whether it has been modified or 
tampered with or not? Are those capabilities--do those 
capabilities currently exist?
    Ms. Parsky. Well, I think that, as I have said, this 
technology is a growing, burgeoning technology. So what we are 
looking at is an increased connectivity. So to the extent that 
today you might have the ability to connect from very low 
altitudes in an airplane to the ground without any type of 
enhanced technology, some of the technologies that have been 
discussed today would increase that connectivity and provide it 
more reliably from higher altitudes.
    So, as of today, unless they are experimenting with some of 
these technologies on the particular aircraft you are flying 
on, you would not be able to go into a lavatory and get a 
reliable connection. If some of these new technologies were put 
in place, that would be able to be done more reliably.
    I think the one important point that I want to make is that 
what law enforcement's position is here--there are some 
increased risks, such as the diverse ways that these types of 
technologies could be used as an explosive device, but then 
there are also some opportunities.
    So as this new technology is rolling out, what we are 
asking is that the industry--that the regulatory bodies take 
into consideration some of the enhancements to law 
enforcement's capabilities that could be provided with these 
valuable technologies at the same time. So that in these very 
delicate situations there are capabilities that are built in so 
that we are better able to protect the public.
    Mr. Poe. Well, let me just ask it a different way. Are 
there current abilities to take a cell phone and not 
necessarily get a signal but use it as a device to detonate 
some other object on the plane or interfere with the 
frequencies, that cause the plane to go down instead of up? Any 
of those things--so there are current capabilities using some 
type of Blueberry, BlackBerry, GameBoy, computer, all those 
things that we know about. Can you use one of those devices to 
do harm to the aircraft currently?
    Ms. Parsky. There is always the possibility that there will 
be some creative use of a device, a watch or something, 
anything else that someone may be carrying on board; and the 
screening procedures will be in place so those items will be 
detected before they get on board. So DHS may be able to speak 
a little better to the screening procedure, but whether it is a 
cell phone or nocuous object that someone is carrying in their 
bag, there is always the potential.
    Mr. Poe. All right. Thank you.
    Do you want to address that? You look like you want to 
answer that question.
    Mr. Kearney. I am not sure what gave you that impression, 
sir, but I would mirror the comments that you have just heard. 
I would also say that it is not a new threat. What you are 
referring to, our layered screening system is in place to 
mitigate the risk of use of these electronic devices for that 
sort of interference you had suggested; and as we move down the 
road, improve our screening, deploy new and better 
technologies, we will get better at it.
    Mr. Poe. All right. Thank you, Mr. Chairman.
    Mr. Mica. I thank you.
    There being no further questions for this panel--
    Mr. DeFazio. Well, Mr. Chairman.
    Mr. Mica. Did you have any?
    Mr. DeFazio. Just along the last line of questioning, as I 
understand, it was sort of a two-part question.
    One, we have located the professor at Embry-Riddle who 
testified previously about the potential for interference with 
critical flight systems. We will be getting in touch. I would 
just read his name into the record.
    But also the second thing was, can you use a cell phone as 
a--you know, can you call another cell phone and use it as a 
triggering device? Yes, I mean, we went through that in Iraq 
for a while until they started jamming cell phones and 
automatic door openers. They have gone through a series of 
things. Anything could work that way.
    I think the point Ms. Parsky is making is that, right now, 
it is entirely reliable that you are going to reach that unit 
on the plane, but if you are going to enhance that plane's 
capabilities, it wouldn't be reliable and you could choose a 
particular point during the flight at which you wanted to take 
that plane down. This is just another element of risk, is what 
you are saying. You know, I mean, there are a lot of risks.
    We won't--we were just visiting all the issues about 
explosives on planes and how bad our system is, the fact that 
we are not looking, as the Chairman and I have talked about 
many times, for plastic explosives in carry-on bags with 
passengers, et cetera, but that is another issue for another 
day.
    Thank you.
    Mr. Mica. Again, we--
    Mr. DeFazio. I was just going to read his name. Could I?
    Mr. Mica. Yes.
    Mr. DeFazio. It was Albert D. Helfrick--H-e-l-f-r-i-c-k--
Professor at Embry-Riddle Aeronautical University, Daytona 
Beach.
    Mr. Mica. Thank you.
    As I started to say, we have raised a number of issues 
today; and I appreciate your testimony. You are contributing to 
the question whether or not cell phones should be permitted on 
passenger aircraft.
    I think we still are looking for some answers to some of 
those points that were raised today. We will probably have some 
additional questions that we will submit to each of the 
panelists. There are also some gray and security areas that we 
may want to question you about in a nonpublic forum.
    But I appreciate the cooperation of each of the panelists. 
Again, I apologize for the delay during the votes.
    What we will do is excuse you at this time, and we will 
call our second panel.
    Mr. Mica. The second panel of witnesses today consists of 
Patricia Friend. She is the International President of the 
Association of Flight Attendants with CWA, AFL-CIO. Mr. Greeley 
Koch, President of the Association of Corporate Travel 
Executives. Mr. Paul Guckian, who is the Senior Director of 
Technology at QUALCOMM.
    I would like to welcome our witnesses in the second panel.
    Again--well, Ms. Friend, I know, has been here before. But 
if you have any lengthy statements or material you would like 
to be made part of the record, you could submit it through the 
Chair. We try to get you to summarize your statements in 
approximately 5 minutes. That leaves us some time for 
questions.

   TESTIMONY OF PATRICIA A. FRIEND, INTERNATIONAL PRESIDENT, 
ASSOCIATION OF FLIGHT ATTENDANTS - CWA, AFL-CIO; GREELEY KOCH, 
PRESIDENT, ASSOCIATION OF CORPORATE TRAVEL EXECUTIVES; AND PAUL 
      GUCKIAN, SENIOR DIRECTOR, TECHNOLOGY, QUALCOMM, INC.

    Mr. Mica. So, welcome back, Patricia Friend, again, 
representing the International--actually, she is the 
International President and representing the Association of 
Flight Attendants. Pleased to have you. Maybe we will get to 
find out whether we should not only arm the pilots as we have 
done but now that we may have cell phones, we may need to arm 
the flight attendants.
    Welcome, and you are recognized.
    Ms. Friend. Thank you, Mr. Chairman; and thank you, Mr. 
DeFazio. Thank you for the introduction. I can now skip that 
part.
    I am here to testify today to voice our strong opposition 
to the lifting by the FCC and FAA of bans on the use of cell 
phones on airborne aircraft. Lifting the ban on cell phones on 
aircraft is a bad idea. It would not only create a nuisance, 
potentially interfere with aircraft operation and enable a 
possible tool in the terrorist arsenal. It would impair the 
flight attendants' ability to maintain order in the cabin, 
undermining aviation safety and security.
    Our flight attendants have reported to us numerous 
incidents of conflict over turning off cell phones before 
takeoff. Many of these result in the removal of passengers from 
flights. These incidents cause delays, theydistract attention 
from crew safety briefings, and they undermine crew authority. 
In the closed quarters of the airline cabin, with passengers 
already concerned about security and confused about when and 
where they may and they may not use cell phones, tensions do 
run high.
    In a very recent incident, a very belligerent passenger 
refused to turn off her cell phone prior to takeoff despite 
repeated requests by the flight attendant.
    Following final safety checks and an additional cabin 
announcement to turn off all electronic devices, the passenger 
continued her call and refused to stop. Finally, after the 
flight attendant notified the captain and he threatened to 
return to the gate, the passenger did shut off the cell phone.
    In another case, a captain encountered a navigation problem 
during initial taxi away from the gate area. He pulled off the 
taxiway and ran system checks. Three separate announcements 
were made to shut off all electronic devices. However, one 
passenger continued to talk on their cell phone. The passenger 
behind him alerted the flight attendant, who communicated 
finally the seriousness of the problem to the passenger, 
persuading him to turn off his cell phone. Although it is 
uncertain whether the navigation problem was related to the 
cell phone, the system did clear up once the phone was turned 
off, and the flight proceeded.
    These are just two of the many incidents that happen on a 
daily basis on board the thousands of flights in this country. 
All of these incidents suggest that declaring open season for 
cell phone use on board aircraft threatens to create an 
unmanageable situation, undermining order in the cabin, and 
jeopardizing aviation safety.
    As has already been noted here this morning, over 7,800 
written comments from the public, industry, and government 
agencies have been submitted in response to the proposed FCC 
rule change. The vast majority of those comments strongly favor 
keeping the ban on in-flight cell phone use. This is consistent 
with a national poll that we cosponsored with the National 
Consumers League of airline passengers earlier this spring. 
That poll found that 63 percent of air travelers want to keep 
cell phone restrictions in place, and said that cell phone use 
in the cramped confines of the airplane cabin would be annoying 
and divisive. Seventy-six percent of business travelers 
identified the number one problem of allowing cell phone usage 
on board the aircraft as creating a disruptive, noisy, and 
annoying environment.
    Among some of the poll's other findings, 78 percent agreed 
that cell phone use on board the aircraft could lead to 
increased passenger unruliness and interfere with the flight 
attendants' ability to maintain order. Eighty-seven percent 
were alarmed when they were informed that pilots have reported 
many cases of problems with navigational equipment possibly 
caused by cell phones or other electronic devices used in 
flight. Seventy-eight percent of those polled believe that cell 
phones might distract passengers from hearing life-saving 
instructions in an emergency, and 78 percent believed that 
allowing cell phone usage on board the aircraft could help 
terrorists execute a hijacking plan more effectively.
    But it isn't just the public and the flight attendants that 
agree that cell phone usage on board the aircraft is 
unnecessary. In a letter to FAA Administrator Marion Blakey, 
Cingular executive vice president Paul Roth wrote: We believe 
there is a time and place for wireless phone conversations, and 
seldom does that include the confines of an airplane flight.
    Law enforcement experts report that allowing public use of 
personal cell phones on airborne aircraft could actually 
facilitate terrorist activities.
    The Association of Flight Attendants categorically rejects 
the notion that cell phone use on an aircraft is a necessity. 
Allowing cell phone usage would result in the vast majority of 
our time, effort, and energy being diverted from important 
safety and security duties to becoming an in-flight cell phone 
enforcer.
    We urge this subcommittee and all of Congress to work with 
the FCC, the FAA, and other government agencies to ensure that 
existing bans on the use of cell phones on board commercial 
airplanes in flight are kept in place.
    One further thing to consider from the poll that I 
previously referenced is that 90 percent of the respondents 
agreed that if in-flight cell phone use is approved, the 
aircraft should be fitted with systems that would allow the 
flight crew to instantly disconnect all cell phone calls during 
safety and emergency announcements.
    I ask the Chairman to accept our written testimony and 
attached comments where we outline our concerns in much more 
detail. After you have had an opportunity to examine this 
document, we are certainly available for further clarification. 
Thank you.
    Mr. Mica. Thank you for your testimony and your entire 
statement. And the information will be included as part of the 
record, without objection.
    Mr. Greeley Koch, president of the Association of Corporate 
Travel Executives. Welcome, sir. And you are recognized.
    Mr. Koch. Thank you very much, Mr. Chairman, Mr. DeFazio. I 
appreciate the opportunity to speak today. I would just request 
that my full statement be entered into the record, and I would 
just summarize my comments.
    Mr. Micas. Without objection, so ordered.
    Mr. Koch. Thank you. I am speaking today on behalf of the 
2,500 members of the Association of Corporate Travel 
Executives, who represent the business travel interests of 
major corporations, as well as the aviation, hospitality, 
surface transportation, and support industries of the travel 
sectors in 30 countries around the world. Our association seeks 
to maximize the corporate return on travel investment while 
boosting the productivity and effectiveness of the business 
traveler on the road.
    Business travelers derive the most out of their travel time 
through a number of electronic devices that are an extension of 
their offices. The cell phone is undoubtedly the most common of 
these. Judicious use of the cell phone will convert isolated 
hours spent in flight into productive, revenue-generating 
potential, especially on long flights. Fifty-three percent of 
our members responding to a poll indicated that business 
travelers would be more productive through cell phone access 
while in flight. Ninety-two percent of our members 
overwhelmingly indicated that they would favor a move 
permitting text messaging or type, not talk, either via cell 
phones or BlackBerry-type devices, allowing travelers to access 
critical e-mail while en route.
    ACTE is not insensitive to the concerns of others who 
predict that the airlines will reverberate with endless musical 
tones of cell phones or, worse, incessant loud conversations. 
Our association recommends that any cell phone use on 
commercial aircraft require mandatory use of a headset, and 
that cell phones be set for silent ringing in the vibrating 
mode. The prescribed in-flight use of cell phones could be 
detailed in seat-back cards, in-flight magazines, or the 
announcements at the beginning of each flight. I think 
eventually the public will become informed, and the process 
will become standard operating procedure.
    Allowing the use of cell phones en route will undoubtedly 
accelerate the development of a more advanced technology to 
mask background noises. Noise-canceling electronics for 
microphones and earpieces are already commercially available 
for the recreation market, and these enable individuals to 
speak and be clearly understood in a normal voice tone against 
a variety of strong background noises. The cost and 
availability of these devices will drop as market demand 
increases. There could even be a revenue-generating opportunity 
for the airlines in having headsets available for purchase or 
rental on each flight.
    So, on behalf of ACTE, we request the continued review of 
regulations regarding the cell phone use on commercial aircraft 
with the headset caveat, or to recommend an action allowing the 
transmission of text.
    Thank you, Mr. Chairman. And that just ends my summary 
comments.
    Mr. Mica. Thank you.
    We will hear now from Paul Guckian, senior director of 
technology with QUALCOMM.
    Welcome. You are recognized.
    Mr. Guckian. Good afternoon, Mr. Chairman and members of 
the Aviation Subcommittee. I am honored to testify before the 
subcommittee today on behalf of QUALCOMM, Incorporated.
    QUALCOMM is a leading developer and supplier of digital 
wireless communication products and services, and is the 
innovator of code division multiple access, CDMA, a technology 
that has become the world's standard for the wireless 
communication industry.
    I would like to discuss today the research and development 
that QUALCOMM has conducted in the area of wireless 
communications for aviation use.
    QUALCOMM is an original member of RTCA Special Committee 
202, and our participation in this committee and interaction 
with other industry groups has led QUALCOMM to engage in a 
program of development, analysis, and testing to assess the 
potential for mobile phone interference with aircraft systems 
and also with terrestrial mobile phone networks.
    In addition to evaluating today's interference scenario 
whereby cell phones are left on while the aircraft is in 
flight, QUALCOMM has been doing research and analysis into the 
onboard pico cell concept. A pico cell is a very small, low-
powered unit that uses standard cellular technology to provide 
coverage in small areas with a high number of users; for 
example, in buildings or in cruise ships. Such a device can be 
installed in an aircraft to provide connection to passenger 
wireless devices. The pico cell signals are then connected to 
the ground through a licensed air-to-ground link, either 
satellite or terrestrial-based. A CMA onboard pico cell enables 
both voice and data services, data services being text 
messaging, Internet access, e-mail, and multimedia downloads. 
The onboard pico cell can be configured to support data 
services only and prohibit voice, if necessary.
    From June 2003 to the present, QUALCOMM, in partnership 
with companies such as Boeing and American Airlines, has 
conducted significant test programs on board commercial and 
general aviation aircraft using CDMA, pico cell, and multiple 
CDMA phones. We have made both ground-based and in-flight 
measurements of cellular and PCS frequencies. On July 15, 2004, 
QUALCOMM and American Airlines conducted a successful in-flight 
proof-of-concept demonstration of the CDMA pico cell 
technology. Reports from the various test programs and 
demonstration have been submitted to the RTCA and also to the 
FCC for review.
    The test results to date are promising. The on-aircraft 
testing has resulted in no detectable interference to aircraft 
systems from CDMA technologies. QUALCOMM supported NASA Langley 
in a test and analysis program that they performed on 3G mobile 
phones, and NASA reported that in most cases the phones' 
unintentional transmissions have better safety margins than 
laptops and PDAs that are approved for airborne use today in 
certain segments of the flight.
    One key feature of CDMA technology is the range of the 
closed loop power control. When CDMA phones are close to the 
cell tower, or the pico cell in the case of the aircraft cabin, 
they transmit intentional signals at power levels as low as 
microwatts. This very low level of power significantly reduces 
the potential for interference to the aircraft systems as well 
as the terrestrial networks. Other technologies do not power 
control down to the levels of CDMA and so present a higher 
potential for interference. Further work is required to 
determine what level of interference is tolerable by the 
terrestrial carriers. QUALCOMM believes that it should be up to 
the wireless carriers to decide whether they want to accept a 
low level of interference in exchange for the revenue-
generating opportunities.
    QUALCOMM will continue to support RTCA SC-202's work to 
evaluate compatibility between transmitting passenger devices 
and aircraft systems. We are also pursuing collaborative test 
programs to evaluate multiple-technology pico cells, which will 
include CDMA with GSM and Wi-Fi access points.
    QUALCOMM is aware of the number of public interest issues 
that have been raised, and we would like to offer a few 
comments in this area. QUALCOMM would like to highlight the 
fact that data services are a key component of wireless 
connectivity, and today's 3G cellular and PCS networks have 
evolved to support these key services. The same data services 
that are offered today by the terrestrial service providers 
would also be enabled through the use of a CDMA pico cell on 
board the aircraft. This would provide passengers with in-
flight access to text messaging, e-mail, Internet access, 
games, et cetera, on their personal phones, PDAs, or CDMA-
enabled laptops. The multiple devices shown by the Chairman in 
the opening comments are converging into one device, and that 
device is the cell phone. Even if cellular and PCS connectivity 
is not authorized or provided on the aircraft, the passengers 
will want to use the nonwireless features of the phones, such 
as games, music player, personal organizer, and preloaded media 
content.
    In conclusion, QUALCOMM, in collaboration with the aviation 
industry, has done considerable research on the question of 
interference to avionics and terrestrial wireless networks for 
the use of CDMA devices and pico cell technology. The system 
shows promising capabilities for allowing aviation passengers 
to use a wide range of mobile devices while in flight without 
compromising the safety of the aircraft or the reliability of 
the terrestrial networks. Some additional work needs to be 
completed, and we stand ready to assist government agencies in 
completing the necessary research.
    It is important to note that today's mobile phone has many 
capabilities beyond voice. Increasingly, consumers are relying 
on their mobile device for such applications as text messaging, 
e-mail, Internet access. These applications are available today 
and will become the expectation of flying consumers as the use 
of mobile electronic devices and 3G data services continue to 
grow.
    It is therefore imperative that government regulations 
address the complex safety and public interest issues related 
to the use of portable electronic devices. We applaud the FAA 
and the FCC for undertaking reviews of the regulations in this 
area. And this concludes my testimony.
    Mr. Mica. Well, thank you.
    And as a follow-up, let me just start with a question. You 
believe, Mr. Guckian, that it is just a matter of time and 
technology that we will be using both cell phones and text 
messaging and other capabilities of electronic devices on 
aircraft, and it can be done safely?
    Mr. Guckian. Mr. Chairman, the work that we focused on is 
on our own CDMA technology as a complex problem when you look 
at other wireless technologies that are involved. The GSM 
community has done a lot of work, and that is where we hope to 
collaborate.
    Mr. Mica. One of the biggest objections seems to be that 
people tend to shout, as Mr. DeFazio said, or raise their voice 
to use their cell phone. And we already have people talking. I 
mean, you can't bind and gag people and make them be silent for 
the duration of their flight. And I have been inconvenienced by 
a numbered of conversations I don't need to detail here today. 
But is that also a technical problem that can be resolved?
    Mr. Guckian. You know, the question that was raised earlier 
about the sight-tone effect, and do cell phones have the same 
feature as the landline? They do have sight-tone effect. And so 
from the technical side, that feature is there. Our 
observations have been that the aircraft environment is noisy, 
and it is the free ear, if you like, that is perceiving this 
high level of noise that is causing passengers to talk loudly.
    In the American Airlines demo, we had a number of press and 
VIPs, and they all began to talk very loudly. The phone is very 
tuned to voice frequencies. They very quickly adapted to 
reducing their voice level almost to a whisper, and as the 
people on the receiving end realized there was distortion as a 
result of them talking so loudly.
    Mr. Mica. The other thing, too, we have seen the use of 
cell phones when the plane lands now, and I think many people 
find that convenient because possibly they have someone who has 
been circling the airport to pick them up, or you are late, or 
you can better coordinate your connection with those who are 
meeting you. That doesn't seem to have disrupted airplane 
humanity as we know it, has it?
    Mr. Guckian. On the social issue side, I think we defer to 
the flight attendants, the people who are having to manage 
those social issues. I think for the personal passenger that 
still can be irritating.
    Mr. Mica. I have seen even, Ms. Friend, a few flight 
attendants making cell phone calls when the plane lands; in 
fact, heard them calling someone they were either meeting. And, 
again, it doesn't appear to be--now that they have opened up 
that little window of opportunity from the time the aircraft 
lands until it gets to the boarding point. So, again, it is 
becoming a more common practice, and maybe not that irritating 
once people are accustomed to it. Do you think they will get 
used to it or not?
    Ms. Friend. I think the key point in what you are talking 
about is it is a short window of opportunity. It is a very 
limited period of time. So for the 5 minutes or maybe 10 that 
it takes to taxi the aircraft in and park it, I think people 
are willing to tolerate the sort of--it is all a part of the 
getting ready to get off the airplane process. I think that is 
different than a 7-1/2-hour flight over the Atlantic in the 
middle of the night where you would like to sleep, but someone 
else would rather conduct business on the cell phone.
    Mr. Mica. You can't bind and gag folks. I have been on 
transatlantic flights where they stay up all night talking and 
drives you crazy. I have been on domestic flights from here to 
Florida, and people's conversations are very loud and 
disturbing.
    Ms. Friend. And if they don't have anybody with them to 
talk to, then they would be able to call somebody on the cell 
phone and talk to them.
    Mr. Mica. Have you all adopted a policy against the so-
called tap and not talk?
    Ms. Friend. We haven't. We have discussed the distinction 
between actually talking on the cell phone and being able to e-
mail, use a BlackBerry or whatever. We are waiting for the 
results of the RTCA study, which they have said they will not 
be finished with phase 2 until next year. So clearly that is 
very important to all of us in the aviation industry, what 
their recommendation is about the overall safety of the use of 
these electronic devices.
    Mr. Mica. Thank you.
    Mr. DeFazio.
    Mr. DeFazio. I am pleased to hear that you are keeping an 
open mind on that, and I think that may be--and I understood 
from Mr. Guckian that that would be a sort of--and also from 
Mr. Koch his fall-back position if you are not going to allow 
voice, but at least allow data transmission if it is safe, and 
if we can totally qualify that it would be safe with various 
devices.
    Mr. Koch, did you ask this question in your poll: Would you 
approve of the use of cell phones on airplanes if you 
frequently were seated next to someone talking very loudly and 
incessantly during a transcontinental airplane flight?
    Mr. Koch. We did not ask that question.
    Mr. DeFazio. I think you might get a different answer. I 
mean, people are saying it would be convenient, and I will just 
use it for business purposes, but they are not thinking of 
people who use cell phones for recreational purposes, which is 
becoming more and more common as the price of using cell phones 
drops. I mean, there are people who never go anywhere without a 
cell phone in their ear and carrying on a conversation. And we 
have already come up with the problems that are being 
documented in terms of driving and distraction and those sorts 
of things.
    So I just think that vaulting into this environment, and, 
as was said previously, is a loud environment, you know, which 
would probably have people talking even more loudly than they 
do walking down the street or sitting in restaurants and other 
places. So I think you might want to sort of check that out 
with your constituents before--because I get a very different 
reaction in talking to business travelers and other frequent 
fliers. I find very few who feel that they need to have access 
to voice. They would like to have access to data. I mean, data 
is more succinct communication; you can get the critical stuff 
out there. But I just kind of question that statistic.
    But anyway, thanks for being here, and we will continue to 
wrestle with this. And my intention first and foremost is 
safety, and I am going to be following up with the gentleman I 
talked about earlier and his concerns, and being sure that 
those are addressed, and any review of this technology, and 
answering all those questions.
    It is interesting to hear that CDMA loop issue would 
prevent a stronger transmission, you know, if there was a 
proximate device. But, of course, if there isn't a proximate 
device, then the CDMA would have the same signal strength as 
other systems; is that correct?
    Mr. Guckian. Yes, that is correct. At equivalent power 
levels.
    Mr. DeFazio. Thank you.
    Thank you, Mr. Chairman.
    Mr. Boozman. Thank you, sir.
    Mr. Guckian, I understand that the FAA approved a pico cell 
network designed by your company for a charter flight using MD-
80 aircraft. And I guess that was up to 15 calls were 
simultaneously handled. What is the effect when you have 
hundreds of calls handled at one time on a large Boeing 747-
like plane? Is the technology there, the cost, capacity 
limitations, things like that?
    Mr. Guckian. The pico cell technology that we use for the 
American Airlines proof-of-concept demonstration has a capacity 
of over 100 simultaneous calls. The limiting factor is the air-
to-ground link. And we were using the Global Star satellite 
system, and that system, airborne system, did have a bandwidth 
limitation that would only allow 15 simultaneous calls. So the 
pico cell itself will support over 100 calls; and if the 
bandwidth to and from the aircraft--and I would give an example 
of something like Connexion by Boeing that has megabits per 
second--then they could certainly support up to 100 calls.
    Mr. Boozman. Ms. Friend, Amtrak and other commuter trains 
have designated quiet cars. You know, I guess it kind of calls 
to mind in the old days when you had no smoking and smoking 
sections on the airplane and however that worked. I mean, is 
there any thought of anything like that, or configurating maybe 
an area next to the bathroom or something where there is an 
area that you can go--well, you know, some sort of thing to 
kind of segregate things where somebody didn't want to do that?
    Ms. Friend. There is no ability to create separate quiet 
cars on board an aircraft cabin. And the reason we now have no 
smoking instead of smoking and no smoking sections is because 
it doesn't work, because somewhere on that aircraft cabin those 
sections have to meet, and there was no way to protect the 
other occupants of the airline cabin from the effects of 
second-hand smoke. And just as there would be no way--because 
if you are sitting in the last row of the no cell phone 
section, the people right behind you are the first row of the 
cell phone section. So we don't have the same ability in an 
aircraft cabin as Amtrak has to really segregate the situation.
    Mr. Boozman. Mr. Koch, you know, again, Ms. Friend and 
others have raised the question of having the annoying 
seatmate. And certainly if you are--myself, the Members fly as 
much as anybody. To be sitting in the middle seat with two 
people perhaps chatting away on either side certainly could be 
annoying.
    You talked about using headsets, requiring passengers--or 
having headsets, that you could maybe do that down. I guess the 
question comes, what about the ones that don't have the 
headsets?
    The other thing is that in your polling--refresh my--how 
does that run in the sense of what kind of numbers are you 
seeing?
    Mr. Koch. We were seeing numbers, 53 percent supported 
repealing the ban. And when you look at those numbers, because 
it was so close--
    Mr. Boozman. Was that on specifically cell phones, or was 
that on BlackBerries and that kind of technology?
    Mr. Koch. That was on cell phones. And then 92 percent were 
as far as BlackBerries, repealing that ban. And I think because 
the cell phone was so close, you know, people do look at the 
airplane as the last bastion of quietness, if you will, while 
they are traveling, unless you do get the seatmate next to you 
that wants to talk the whole flight. And so I think that is 
where we were seeing the polling being as close as it was.
    But then the Members were also saying, if we do have the 
text capability--because we somehow want to remain productive. 
And I think that is what is important to the business traveler 
is it is sometimes about choice. You know, most of the time you 
just want to read or fall asleep, but then if you are in that 
business, still you also want to have the chance to continue it 
or to respond to it.
    And I think, as far as the headsets, we are advocating that 
once you look at the safety issues, then we do think that there 
does need to be some sort of concern about the respect on 
board, and that headsets or whatever that can be developed to 
make the conversations be normal-type voice conversations 
instead of the shouting, I think, would go a long way to making 
the environment much more better on board the aircraft.
    Mr. Boozman. Thank you. You know, the other thing is, I 
mean, even in the context of different flights, you know, a 
2:00 flight is different than a 6:00 a.m. flight where you 
probably got up at 3:00 or 3:30 to get through security and the 
whole bit.
    So, again, we thank you all so much. Thank this panel and 
the other panel for being here. So, again, thank you for your 
input, and the meeting stands adjourned.
    [Whereupon, at 12:57 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T5908.001
    
    [GRAPHIC] [TIFF OMITTED] T5908.002
    
    [GRAPHIC] [TIFF OMITTED] T5908.003
    
    [GRAPHIC] [TIFF OMITTED] T5908.004
    
    [GRAPHIC] [TIFF OMITTED] T5908.005
    
    [GRAPHIC] [TIFF OMITTED] T5908.006
    
    [GRAPHIC] [TIFF OMITTED] T5908.007
    
    [GRAPHIC] [TIFF OMITTED] T5908.008
    
    [GRAPHIC] [TIFF OMITTED] T5908.009
    
    [GRAPHIC] [TIFF OMITTED] T5908.010
    
    [GRAPHIC] [TIFF OMITTED] T5908.011
    
    [GRAPHIC] [TIFF OMITTED] T5908.012
    
    [GRAPHIC] [TIFF OMITTED] T5908.013
    
    [GRAPHIC] [TIFF OMITTED] T5908.014
    
    [GRAPHIC] [TIFF OMITTED] T5908.015
    
    [GRAPHIC] [TIFF OMITTED] T5908.016
    
    [GRAPHIC] [TIFF OMITTED] T5908.017
    
    [GRAPHIC] [TIFF OMITTED] T5908.018
    
    [GRAPHIC] [TIFF OMITTED] T5908.019
    
    [GRAPHIC] [TIFF OMITTED] T5908.020
    
    [GRAPHIC] [TIFF OMITTED] T5908.021
    
    [GRAPHIC] [TIFF OMITTED] T5908.022
    
    [GRAPHIC] [TIFF OMITTED] T5908.023
    
    [GRAPHIC] [TIFF OMITTED] T5908.024
    
    [GRAPHIC] [TIFF OMITTED] T5908.025
    
    [GRAPHIC] [TIFF OMITTED] T5908.026
    
    [GRAPHIC] [TIFF OMITTED] T5908.027
    
    [GRAPHIC] [TIFF OMITTED] T5908.028
    
    [GRAPHIC] [TIFF OMITTED] T5908.029
    
    [GRAPHIC] [TIFF OMITTED] T5908.030
    
    [GRAPHIC] [TIFF OMITTED] T5908.031
    
    [GRAPHIC] [TIFF OMITTED] T5908.032
    
    [GRAPHIC] [TIFF OMITTED] T5908.033
    
    [GRAPHIC] [TIFF OMITTED] T5908.034
    
    [GRAPHIC] [TIFF OMITTED] T5908.035
    
    [GRAPHIC] [TIFF OMITTED] T5908.036
    
    [GRAPHIC] [TIFF OMITTED] T5908.037
    
    [GRAPHIC] [TIFF OMITTED] T5908.038
    
    [GRAPHIC] [TIFF OMITTED] T5908.039
    
    [GRAPHIC] [TIFF OMITTED] T5908.040
    
    [GRAPHIC] [TIFF OMITTED] T5908.041
    
    [GRAPHIC] [TIFF OMITTED] T5908.042
    
    [GRAPHIC] [TIFF OMITTED] T5908.043
    
    [GRAPHIC] [TIFF OMITTED] T5908.044
    
    [GRAPHIC] [TIFF OMITTED] T5908.045
    
    [GRAPHIC] [TIFF OMITTED] T5908.046
    
    [GRAPHIC] [TIFF OMITTED] T5908.047
    
    [GRAPHIC] [TIFF OMITTED] T5908.048
    
    [GRAPHIC] [TIFF OMITTED] T5908.049
    
    [GRAPHIC] [TIFF OMITTED] T5908.050
    
    [GRAPHIC] [TIFF OMITTED] T5908.051
    
    [GRAPHIC] [TIFF OMITTED] T5908.052
    
    [GRAPHIC] [TIFF OMITTED] T5908.053
    
    [GRAPHIC] [TIFF OMITTED] T5908.054
    
    [GRAPHIC] [TIFF OMITTED] T5908.055
    
    [GRAPHIC] [TIFF OMITTED] T5908.056
    
    [GRAPHIC] [TIFF OMITTED] T5908.057
    
    [GRAPHIC] [TIFF OMITTED] T5908.058
    
    [GRAPHIC] [TIFF OMITTED] T5908.059
    
    [GRAPHIC] [TIFF OMITTED] T5908.060
    
    [GRAPHIC] [TIFF OMITTED] T5908.061
    
    [GRAPHIC] [TIFF OMITTED] T5908.062
    
    [GRAPHIC] [TIFF OMITTED] T5908.063
    
    [GRAPHIC] [TIFF OMITTED] T5908.064
    
    [GRAPHIC] [TIFF OMITTED] T5908.065
    
    [GRAPHIC] [TIFF OMITTED] T5908.066
    
    [GRAPHIC] [TIFF OMITTED] T5908.067
    
    [GRAPHIC] [TIFF OMITTED] T5908.068
    
    [GRAPHIC] [TIFF OMITTED] T5908.069
    
    [GRAPHIC] [TIFF OMITTED] T5908.070
    
    [GRAPHIC] [TIFF OMITTED] T5908.071
    
    [GRAPHIC] [TIFF OMITTED] T5908.072
    
    [GRAPHIC] [TIFF OMITTED] T5908.073
    
    [GRAPHIC] [TIFF OMITTED] T5908.076
    
    [GRAPHIC] [TIFF OMITTED] T5908.077
    
    [GRAPHIC] [TIFF OMITTED] T5908.078
    
    [GRAPHIC] [TIFF OMITTED] T5908.079
    
    [GRAPHIC] [TIFF OMITTED] T5908.080
    
    [GRAPHIC] [TIFF OMITTED] T5908.081
    
    [GRAPHIC] [TIFF OMITTED] T5908.082
    
    [GRAPHIC] [TIFF OMITTED] T5908.083
    
    [GRAPHIC] [TIFF OMITTED] T5908.084
    
    [GRAPHIC] [TIFF OMITTED] T5908.085
    
    [GRAPHIC] [TIFF OMITTED] T5908.086
    
    [GRAPHIC] [TIFF OMITTED] T5908.087
    
    [GRAPHIC] [TIFF OMITTED] T5908.088
    
    [GRAPHIC] [TIFF OMITTED] T5908.089
    
    [GRAPHIC] [TIFF OMITTED] T5908.090
    
    [GRAPHIC] [TIFF OMITTED] T5908.091
    
    [GRAPHIC] [TIFF OMITTED] T5908.092
    
    [GRAPHIC] [TIFF OMITTED] T5908.093
    
    [GRAPHIC] [TIFF OMITTED] T5908.094
    
    [GRAPHIC] [TIFF OMITTED] T5908.095
    
    [GRAPHIC] [TIFF OMITTED] T5908.096
    
    [GRAPHIC] [TIFF OMITTED] T5908.097
    
    [GRAPHIC] [TIFF OMITTED] T5908.098
    
    [GRAPHIC] [TIFF OMITTED] T5908.099
    
    [GRAPHIC] [TIFF OMITTED] T5908.100
    
    [GRAPHIC] [TIFF OMITTED] T5908.101
    
    [GRAPHIC] [TIFF OMITTED] T5908.074
    
    [GRAPHIC] [TIFF OMITTED] T5908.075
    
                                    

</pre></body></html>
